W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-7569

Deidre M. Hunt

State of Florida
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Kellie A. Nielan

Date:

4/26/21

Digitally signed by Kellie A. Nielan
Date: 2021.04.26 16:23:19 -04'00'

(Type or print) Name Kellie A. Nielan
Mr.

Ms.

Mrs.

Firm

Office of Florida Attorney General

Address

444 Seabreeze Boulevard, Suite 500

City & State

Daytona Beach, Florida

Phone

386-238-4990

Miss

Zip 32118
Email

kellie.nielan@myfloridalegal.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Deidre M. Hunt, Petitioner

cc:

